No.

IN THE SUPREME COURT OF THE UNITED STATES

Vivian Epps, PETITIONER
v.
CVS HEALTH CORPORATION, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURTS APPEALS
FOR THE NINTH CIRCUIT

filed

MAr o 6 2021
PETITION FOR A WRIT OF CERTIORARI

Vivian Epps
Pro Se
411 E. Indian School Rd., #3119
Phoenix, AZ 85012
Telephone: (602) 277-5551 ext. 5206

u.s.

CVS Health Corporation, et. al
Undersigned Counselor, Manning & Kass
LAW FIRM
3636 N. Central Ave., 11th Floor
Phoenix, AZ 85012
Telephone: (602) 313-5469

m \ \»»

QUESTIONS PRESENTED

1. Whether the Ninth Circuit 3-panel Judges, TASHIMA,SILVERMAN, and OWENS had
INFRINGED the Rule of NATURAL JUSTICE for NOT giving the Appellant the
opportunity to explain, contradict and rebut their docket September 16, 2020 “NOT FOR
PUBLICATION September 8, 2020 district court’s Memorandum allegations” which
gave way Ninth Circuit’s December 8, 2020 DENIAL final judgement.
2. Whether Appellant’s 3-newly Source-Evidence meet the meaning of Federal Rule 60 (b)
Relief for Renewal Trial that NO TWO SOURCE and EVIDENCE CANNOT BE
IDENTICAL in Comparison to Appellant’s old Source-Evidence of “Google.com and
CVS Pharmacy, Inc.”.
3. Whether Plaintiffs Constitutional 14th Amendment Rights and Due Process Clause were
violated by being DEPRIVED of the Due Process stipulated Law Rule for default
judgment/default judgment sum-certain with district court’s discrimination determination
of the Law’s 7-days’ Time Limit have allowed the defendant to defend the action of an .
UNTIMELY-Answer has actually prejudice the plaintiff, or tended to her prejudice, in
respect to a substantial right.
4. Whether the lower courts DENIAL of PlaintiffAppellant’s copy reproduction Electronic
Record audio-disc CD September 27,2918 Hearing be MAILED-OUT to her private
transcriber for evidence comparison raised a substantial federal issue to have Invalidated
the Federal Regulation Program of implicating the Federal Law Electronic Record
Freedom of Information 1996 Act.
5. Whether the appeal court’s Denial to Moot of my motion 2nd post-peremptory challenge
to final judgment has violated my Constitutionality Rights for a new trial with a new
district judge using my plausible and admissible 3-Newly Source-Evidence.

i

LIST of PARTIES to PROCEEDING

1.) The Plaintiff—VIVIAN EPPS
2.) The Defendant - CVS HEALTH CORPORATION

RELATED CASES
Case No. l:15-cv-04179-CM
Theme subject of the Case No. 15-04179 is based on "FRAUDULENTLY" false claim done by CVS
Health Corporation knowingly made untrue statement or claim to gain reward.
Caption Page named the CVS store in Ohio of its owner of the store, Subsidiary Omnicare CVS,
LLC as Defendant and the lawsuit also made the PARENT COMPANY a Defendant of being
connected to Omnicare CVS, LLC.
Caption Page, #2, First top paragraph, Line 3 and 4 of Statement CONNECTING the Parent
Company (in Rhode Island) by name as "CVS Health Corporation".
Fraudulently is a violation of the False Claim Act, 31, U.S.C. section 3729-3722 (the "FCA").
The case is similar to my case for CVS Health Corporation is the Defendant, made False Claim
Statements in my case of Document 71, Caption Page}Line 3,4,5,6, and 7 and knowingly made
untrue statement or claim to the lower courts to gain reward of Summary Judgment and
knowingly of Document 72, made or used a false statement material Affidavit # 6, 7,8,9, and 10
My 3-Newly Source is plausible and
from its senior-management employee Melanie Luker.
its Evidence is admissible and DOES exposed Defendant acquired Summary Judgment by Fraud
upon the Court, and that both lower courts does NOT want Petitioner-EPPS to benefit by the
LAW when its obviously deem in the actions.

CORPORATE DISCLOSURE STATEMENT

1.) Disclosure relationship of Plaintiff to Institutions involved in petition:
The Plaintiff were a pre/post permanent TBI injuries Invitee(customer) relationship to Subsidiary
German Dobson CVS, LLC business institution CVS Store # 2963 at the address of 711 E. Indian School
Road, Phoenix, Arizona 85014.

2.) Disclosure relationship of Defendant to Institution involved in petition.
The Defendant relationship to Institution as being the PARENT COMPANY connected into Single
Business Enterprise of the institution business CVS Store #2963 with its wholly-owned Subsidiary
German Dobson CVS,LLC in Phoenix, Arizona as CONFIRMED through Petitioner's 3-Newly SourceEvidence; (1) United States Security Exchange Commissioner's document report email, (2) P.l. Litigator
Jim Reynold's document report email, (3) Defendant's owned "IN-HOUSE" Customer Relations
Department's document page email.

li

TABLE of CONTENTS

Questions Presented

Page i

Parties to Proceeding and Related Cases

Page i

Corporate Disclosure

Page ii

Table of CONTENTS

Page iii

Opinion Below

Page 1

Basis for Jurisdiction

Page 1

Constitutional Provisions

Page 1

Statement of Case

Page 2

Reason for Granting

Page 3

Conclusion

Page-4

Appendix A

Page-5

Appendix B

Page-6

Certificate of Service

Page-7

Iii

TABLE of AUTHORITIES

CASES
Schexnaydernayder v. Vannoy, 140 S. Ct. 354,355 (U.S. 2019)
United Stated v. Nace, 561 F .2d 783 (9th Cir. 1977).................
United States v. Biggins, 551 F .2d 64 (5th Cir. 1977)................
United States v. Huges 658 F .2d 317, 322 (5th Cir. 1981)........

Page 2
.Page 2
.Page 2
.Page 2

STATUTES
Statute False Claim Act, 33, U.S. section 3729-3733 (the "FCA")
Electronic Record Freedom of Information Act 1996..................

Page 2
.Page 2

CONSTITUTIONAL PROVISIONS
US Constitution, 5th Amendment.........................................
US Constitution, 6th Amendment...........................................
US Constitution, 14th Amendment with Due Process Clause

.Page 2
Page 2
Page 2

CITATIONS of OPINIONS

1.
2.

District Court of PHX-Arizona; Case #2:18-cv-01274-DGC
Ninth Circuit Court of Appeals; Case # 19-16100

STATEMENT of the BASIS for the JURISDICTION
The Final Judgment of the Court of Appeals was entered on December 8, 2020. A petition for Rehearing
was Denied on December 8, 2020. This Court's jurisdiction rests on Federal Law cited 28 U.S.C. section
1254(1).

CONSTITUTIONAL PROVISIONS and STATUTES

Constitution Provisions
U.S. Constitution,

Page 2

U,S. Constitution,

Page 2

Statutes

Page 2

Page-1

STATEMENT of the CASE
In a general outline in this case which is all about NOT getting Natural Justice of Fair Justice , Fraud done
by the Defendant with their undersigned counsels, Bias with Prejudice arisen from the September 27,
2018 Hearing and Discrimination of the Law as a Pro Se person and Not being equally treated of the Law
for if I had an attorney, I wouldn't be of railroaded-justice by both lower courts of district Judge
Campbell's judicially negative hegemony to Ninth Circuit Judges to ensured I DO NOT GET A REHEARING
WITH A NEW DISTRICT JUDGE FOR MY 3-NEWLY SOURCE-EVIDENCE of my being unawareness of his sent
Brief to 9th Circuit until I gets Ninth Circuit continue denial without no regards to my constitutionality
rights.
A pro se person should NOT be in disparity judicial mistreatment of her Constitutional Rights under the
14th, 6th and 5th Amendments with her Due Process Clause having been violated and being discriminated
from benefiting the Law Rules, Statutes and Act in her proceedings done by both lower courts as a pro
se party (Schexnaydernayder v. Vannoy, 140 S. Ct. 354,355 (U.S. 2019) revealed a potential state
appellant court bias against pro se litigant), I were denied from a properly August 22, 2018 Default
Judgment/Default Judgment Sum-Certain and BOTH lower court knew the DEFENDANT'S DATED
September 4, 2018 Answer were a submitted UNTIMELY default late Answer were 6-days in default as a
matter of law.
Ninth Circuit submitted me a listings that can get a REHEARING and I chosen, "FRAUD upon the Court
"done by the Defendant to acquire reward Summary Judgment which is in violation to the Federal
Statute False Claim Act, 31, U.S.C. section 3729-3733 (the "FCA")of knowingly made untrue claims to the
court to gain Summary Judgment which my admissible, plausible 3-newly Source-Evidence can exposed,
and about the DENIED district court/Ninth Circuit denial audio disc CD copy, I submitted my court
witness Veronica Hollowell's affidavit for she was present at the time of the audio disc court
conversation and acknowledge its accuracy and of the default court transcription I paid for, Veronica
Hollowell's affidavit is admissible of the audio disc even though the witness did not retain custody of the
audio disc{ United States v. Nace, 561 F .2d 783 (9th Cir. 1977))....(United States v. Biggins, 551 F .2d
64(5th Cir. 1977)), in Biggins, the 5th Circuit held that the party introducing a tape(audio disc) into
evidence has the burden of going forward with sufficient evidence to show the audio disc is an accurate
reproduction of the conversation recorded(the absence of material deletions of the Written
Transcription of district court's reported. See United States v. Huges 658 F .2d 317,322 (5th Cir. 1981),
cert, denied, 455 U.S. F .2d 922 (1982). The federal law of Rule 26 - Duplicate copy of Electronic
Recording allows a person to get a copy audio disc for motion the court to mail-out to its private chosen
transcriber and the Federal Statute Electronic Record Freedom Information Act of 1996 states its audio
disc be equally like its paper (written transcription)counterparts, which both lower courts denied
Plaintiff-Appellant.
Petitioner requesting this Court for an invitation intervention viewpoints of the Solicitor General BEFORE
the 9-Justices' votes.

Page-2

REASON for GRANTING the WRIT

The Petitioner error complained of being unjustified denial of her 2nd post-peremptory challenge as
moot to denied and close my case to precluded Petitioner-EPPS from getting a new trial with a new trial
judge of being now with plausible, admissible 3-newly Source-Evidence that will exposed
FRAUDULENTLY done by the Defendant and Defendant's witness perjury affidavit senior-management
employee statement that assisted in giving cause to be rewarded Summary Judgment about German
Dobson and the "Parent Company" Defendant CVS Health Corporation has resulted in a Miscarriage of
Justice and has PREJUDICED the Appellant-Plaintiff or tended to her prejudice, in respect to a substantial
right.

Page-3

CONCLUSION

For the foregoing reasons, this Petition for Writ of Certiorari should be granted

Respectfully Submitted

Ms. Vivian EPPS
Petitioner, PRO SE
411 E. Indian School RD., #3119
Phoenix, Arizona, 85012

*3

Page-4

Gj 3-03-/.

